   March 12, 2003




Financial Management

Processing General Services
Administration Rent Bills for DoD
Customers in the National Capital
Region
(D-2003-062)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
BART                  Billed Accounts Receivable Tracking
BMF                   Building Maintenance Fund
CBR                   Client Billing Record
DFAS                  Defense Finance and Accounting Service
GSA                   General Services Administration
NCR                   National Capital Region
OA                    Occupancy Agreement
PBS                   Public Buildings Service
STAR                  System for Tracking and Administering Real Property
WHS                   Washington Headquarters Services
          Office of the Inspector General of the Department of Defense
Report No. D-2003-062                                                     March 12, 2003
   (Project No. D2001FI-0126)

         Processing General Services Administration Rent Bills for
              DoD Customers in the National Capital Region

                                Executive Summary

Who Should Read This Report and Why? DoD space managers and financial
management personnel who deal with issues regarding rented building space obtained
from the General Services Administration (GSA) in the National Capital Region. This
report discusses the problems with processing and paying for rent bills.

Background. GSA provides Federal customers with various products and services
including real estate and related services. The Washington Headquarters Services (WHS)
is responsible for the oversight and management of administrative space occupied by
DoD agencies and Military departments in the National Capital Region. DoD customers
occupying space in buildings in the National Capital Region receive rent bills from WHS.

GSA requested this audit after the Inspector General, GSA reviewed unpaid rent bills and
found that WHS was responsible for the largest dollar value of delinquent rent bills. A
long history of billing problems existed between WHS and GSA. However, WHS and
GSA resolved all prior billing disputes as of September 30, 1997. GSA billed
$781 million to WHS for space occupied by DoD customers in 161 buildings in the
National Capital Region from October 1, 1997, through June 30, 2001. WHS passed on
(rebilled) $699.3 million of the $781 million to DoD customers.

Results. Although WHS and GSA resolved all prior billing disputes at the end of
FY 1997, they did not take appropriate actions to prevent the recurrence of billing
problems in the National Capital Region. Specifically:

   •   WHS and GSA did not effectively process rent bills. WHS determined that
       GSA bills were incorrect and did not rebill DoD customers about $81.7 million
       that GSA charged for space that DoD customers occupied at various times in
       161 buildings in the National Capital Region from October 1, 1997, through
       June 30, 2001. WHS did not track differences between the amounts GSA billed
       and the amounts rebilled to DoD customers or effectively coordinate with GSA to
       resolve differences. Our detailed review of available records supporting the
       $124.9 million charged by GSA and the $116 million WHS passed on to DoD
       customers for 8 of the 161 buildings showed that GSA may have overbilled DoD
       by $5.5 million, while WHS failed to rebill up to $3.2 million in valid charges.
       WHS and GSA should form an integrated process action team to reconcile
       significant differences between the amounts GSA billed and the amounts WHS
       disputed and ensure that credits are issued and posted for overcharges to WHS.
       To help prevent future differences from being unresolved for extended periods of
       time, WHS should establish procedures to identify, document, and track
       differences between the amounts GSA billed to WHS and the amounts WHS
       billed to DoD customers (finding A).

   •   The informal process for documenting and resolving disputes on GSA rent bills
       for space in commercial buildings in the National Capital Region was not
       effective and needs improvement. WHS and GSA need to document rent disputes
       on GSA Form 2992, “Adjustment Voucher for Standard Level User Charge
       Transaction,” and periodically meet to resolve unsettled rent issues. Further,
       WHS needs to improve communication with DoD customers by providing a copy
       of the current occupancy agreement related to each lease and pertinent other
       information (finding B).

   •   DoD customers did not pay, or the Defense Finance and Accounting Service
       Kansas City, did not forward to GSA about $20.7 million in rent bills passed on
       by WHS. To ensure that those funds are properly accounted for, Defense Finance
       and Accounting Service needs to followup with DoD customers to verify that
       outstanding amounts are paid and GSA has accurately posted payments to GSA
       records (finding C).

Management Comments and Audit Response. The Defense Finance and Accounting
Service and WHS concurred with the findings and recommendations. However, WHS
did not address the need to provide a copy of the occupancy agreements to the DoD
customers in the National Capital Region. See the Finding section for an additional
discussion of management comments and the Management Comments section for the
complete text. We request that WHS provide comments on the final report by
April 11, 2003.

Management Actions. Together, WHS and GSA have formed an integrated process
action team and have begun reconciling the amounts GSA billed to WHS that WHS
disputed. GSA has issued credits, totaling about $3.8 million, for disputed WHS rent
bills for the eight buildings. In February 2002, WHS and GSA reinstituted the use of the
GSA Form 2992 to document rent disputes and have held periodic meetings to resolve
unsettled rent issues. Through a mutual concerted effort, WHS and GSA have also
resolved most of the occupancy agreement disputes.




                                           ii
Table of Contents
Executive Summary                                               i


Background                                                     1


Objectives                                                     2


Findings
     A. Processing Rent Bills in the National Capital Region    3
     B. Resolving Rent Disputes                                11
     C. Paying Rent Bills                                      16

Appendixes
     A. Scope and Methodology                                  19
          Prior Coverage                                       20
     B. Buildings Reviewed                                     21
     C. Report Distribution                                    27

Management Comments
     Defense Finance and Accounting Service                    29
     Washington Headquarters Services                          31
Background
    General Services Administration (GSA). Reorganization Plan No. 18 of 1950
    transferred to the Administrator of General Services most of the real estate
    management functions of the various Federal agencies. Specifically, GSA was
    given responsibility for acquiring space by lease and the assigning and
    reassigning of space in and the operation, maintenance, and custody of
    general-purpose office buildings owned and leased by the Government. The
    Federal Technology Service, Public Buildings Service (PBS), and Federal Supply
    Service are the three GSA service organizations. Executive Order 12512,
    “Federal Real Property Management,” April 1985, directs the Office of
    Management and Budget and GSA, in consultation with the land managing
    agencies, to develop legislative initiatives that seek to improve Federal real
    property management accountability for implementing effective and efficient real
    property techniques by using appropriate private sector management techniques.

    Inspector General, GSA Report on Billing Collection Processes. Inspector
    General, GSA, Report No. A000986/B/6/F01004, "Review of GSA's Billing and
    Collection Processes for Federal Customers," January 26, 2001, identified reasons
    for unpaid GSA bills and potential solutions for improving the billing and
    collection processes. The agency-wide review covered the three GSA service
    organizations. The review determined that GSA and its Federal customers were
    not reconciling the business accounts and effectively communicating with and
    providing information to each other. Although the Inspector General, GSA, did
    not make any recommendations, it concluded that GSA should use the work of the
    GSA/Defense Finance and Accounting Service (DFAS) Joint Solutions Team as a
    model to improve billing and collection processes for the most significant GSA
    customers. The GSA/DFAS Joint Solutions Team was formed in an effort to
    resolve a cash flow issue related to the non-payment of information technology
    bills for the Federal Technology Service.

    Another area of GSA concern was PBS rent payments. The GSA FY 2000
    Annual Report stated that PBS maintains an estimated 334 million rentable square
    feet of workspace for over one million Federal employees in federally owned and
    leased buildings. GSA requested our assistance in reviewing delinquent rent
    payments. GSA records indicated that DoD customers owed GSA about
    $131.9 million in rent payments as of September 21, 2001. Of the $131.9 million
    in rent payments owed, $109.3 million were delinquent.

    Rent Payments for Buildings in the National Capital Region (NCR). A high
    volume of the delinquent DoD rent payments was concentrated in the NCR. The
    NCR is 1 of 11 GSA regions. The NCR includes the District of Columbia and
    parts of Maryland and Virginia. The GSA realty specialists assigned to each
    region are responsible for capturing and recording data into the System for
    Tracking and Administering Real Property (STAR). The STAR is the GSA
    billing system. The PBS, NCR enters information into the STAR. The Finance




                                        1
    Division (GSA Finance) in Fort Worth, Texas, was responsible for collecting rent
    payments from Federal customers and recording payment data into the Billing and
    Accounts Receivable Tracking (BART) system.

    Roles of DoD Organizations. The Washington Headquarters Services (WHS) is
    responsible for the overall DoD administrative space planning and management
    functions. The Real Estate and Facilities Directorate, Space Policy and
    Acquisition Division, WHS acquires administrative space through GSA and
    subsequently assigns, withdraws, and reassigns the space within DoD. WHS bills
    and provides other space management information to DoD Components. DoD
    Components send the rent payments to DFAS that in turn pays GSA Finance.


Objectives
    Our primary objective was to evaluate DoD procedures for resolving delinquent
    GSA rent bills for DoD customers in the NCR. We also evaluated procedures for
    paying rent bills. See Appendix A for a discussion of the audit scope,
    methodology, and prior coverage related to the audit objectives.




                                       2
           A. Processing Rent Bills in the
              National Capital Region
           WHS and GSA did not effectively process rent bills in the NCR. WHS
           determined that GSA bills were incorrect and did not rebill DoD
           customers about $81.7 million that GSA charged for space that DoD
           customers occupied at various times in 161 buildings in the NCR from
           October 1, 1997, through June 30, 2001. WHS neither tracked differences
           between the amounts GSA billed and the amounts it rebilled to DoD
           customers nor effectively coordinated with GSA to resolve differences.
           Our detailed review of available records supporting the $124.9 million
           charged by GSA and the $116 million WHS passed on to DoD customers
           for 8 of the 161 buildings showed that GSA may have overbilled DoD by
           $5.5 million, while WHS failed to rebill up to $3.2 million in valid
           charges. As a result, billing errors went unresolved, GSA bills went
           unpaid for extended time periods, DoD customers did not have complete
           information as to the liability for unpaid rent bills, and GSA overstated
           accounts receivable from DoD customers.


Responsibilities and Actions of GSA and WHS
    GSA Responsibilities for Acquiring Rental Space. At the request of a federal
    agency, GSA negotiates a lease for space in commercial buildings. GSA leases
    buildings in the NCR for DoD customers. In those buildings, GSA bills WHS for
    lease costs, fees incurred during acquisition, operating costs, and a GSA fee.
    From October 1, 1997, through June 30, 2001, GSA billed WHS about
    $781 million for space occupied at various times by DoD customers in 161
    buildings in the NCR. In some buildings, GSA provides security and parking. In
    other buildings, GSA includes security and parking charges in rent bills or
    delegates the responsibility for maintaining the security to WHS.

    Processing Rent Bills Received From GSA. WHS obtains and manages space
    in commercial buildings within the NCR for DoD customers. WHS reviews the
    GSA bill and the client billing records (CBRs) that accompany the bill and
    allocates the cost to the DoD customers in each building based on the assigned
    space. Some DoD customers may occupy space in several buildings or one
    building may have several DoD customers as tenants. WHS adds a Building
    Maintenance Fund (BMF) charge to the bills for buildings that WHS has
    responsibility for maintaining security or other GSA delegated responsibilities.
    The DoD customers verify the rent bill and authorize DFAS to pay the bill.
    DFAS sends the payment to GSA Finance citing the GSA bill number. GSA
    Finance applies the payments against the appropriate WHS rent bill. Once a bill
    becomes 46 days old, GSA considers it delinquent.




                                        3
    Write-Off of Prior Unresolved Differences. At the end of FY 1997, GSA and
    WHS did not agree on the accuracy and status of $73 million in delinquent GSA
    rent bills for space assigned to DoD customers in the NCR. Through
    negotiations, WHS agreed to pay $3 million to GSA, and GSA agreed to absolve
    WHS of responsibility for paying the remaining $70 million. As of October 1,
    1997, the account between GSA and WHS was in balance. However, because
    WHS and GSA failed to take appropriate actions to prevent the recurrence of
    problems, the account is again out of balance.


GSA Rent Bills and Amounts WHS Rebilled
    Differences in Billing Amounts. As of January 2002, GSA had billed WHS
    $781 million for space that DoD had occupied in buildings in the NCR from
    October 1, 1997, through June 30, 2001. WHS determined that GSA improperly
    billed about $81.7 million in rent charges and chose not to pass the charges on to
    DoD customers. However, because WHS neither tracked nor documented the
    reasons for the billing differences between what GSA billed WHS and what WHS
    billed the individual DoD customers, WHS did not know the amount each
    individual DoD customer was under billed by WHS. As a result, we judgmentally
    selected eight buildings for a detailed review to determine the reasons for the
    differences between the GSA bills and the amounts WHS rebilled DoD
    customers. We also reviewed the accounting for the amounts that were actually
    paid.

    Review of Records for Eight Buildings. GSA billed WHS $124.9 million for
    the 45-month period from October 1, 1997, though June 30, 2001. WHS did not
    pass on a net $8.9 million to the individual DoD customers. GSA and WHS
    provided supporting records for the eight buildings. Our analysis of those records
    showed that both GSA and WHS needed to improve the billing practices and
    ensure that differences in billed amounts were promptly identified, monitored, and
    resolved. Table 1 identifies, by building, the differences between the amounts
    that GSA billed and the amounts that WHS rebilled. The last two columns
    represent our calculation of the dollar value of potential overcharges by GSA as
    well as potential over and under rebilling charges by WHS.




                                        4
                        Table 1. Differences in GSA and WHS Rent Bills
                           (October 1, 1997 through June 30, 2001) 1
                                         (in thousands)
                                                                                                      Potential
                                                     WHS                          Potential            WHS
                                     GSA              Rent                          GSA              Undercharge
             Building             Rent Bill          Rebill     Difference       Overcharge2        (Overcharge)2
     400 Army Navy Dr.           $ 22,217        $ 21,255            $ 962              $ 122               $ 800
     601 N. Fairfax                 4,119           4,213               (94)                 0                (102)
     Ballston Tower I               9,984           9,396               588                 32                 573
     Crystal Gateway N.            25,761          22,196             3,565              2,549               1,127
     Crystal Plaza VI               5,006           4,094               912                883                  31
     Hoffman I                     15,648          14,764               884                355                 531
     Hoffman II                    29,913          27,738             2,175              1,518                 365
     Skyline VI                    12,262          12,329               (67)                36                (112)
     Total                       $124,910        $115,979            $8,925             $5,495              $3,213
     1
     2
       The
         differences in the table represent our best reconstruction based on the data provided by GSA and WHS.
     When combined, the amounts in these columns were more or less than the amounts of the difference column because
     we could not reconcile to the exact amount of the differences.




    Both GSA and WHS made billing mistakes. A detailed discussion of each of the
    eight buildings is in Appendix B. Based on the records provided to us, we
    calculated that about $8.7 million in net adjustments may be needed. GSA sent
    bills to WHS that were not always accurate and did not always apply payments
    received from DoD customers to the correct bill. Although WHS appropriately
    did not rebill most erroneous costs billed by GSA, the rent bills WHS sent to DoD
    customers often understated the amounts that DoD customers owed. The records
    available to us may not have included all documentation of agreements, bills, and
    credits. Customers should not be billed based on data in Table 1. The possible
    lack of records and the numerous errors identified casts doubt as to the reliability
    of the GSA and WHS billing process. Further, an effective process to resolve
    disputed amounts on rent bills did not exist (finding B). Unless GSA and WHS
    work together to improve communications, billing problems will continue to
    occur. We did note, however, that since December 1999, DoD customers paid
    most of the amounts WHS billed to them.


Problems With GSA Bills
    GSA overstated amounts charged to WHS for the eight buildings by about
    $5.5 million. GSA sometimes billed WHS twice for the same space, billed WHS
    for space that DoD customers no longer occupied, and did not adjust rental rates
    appropriately. In addition, security charges were inappropriately included in GSA
    rent bills for delegated buildings (buildings for which WHS already provided


                                                      5
    security), and parking charges were sometimes billed when they were already
    included in the annual rental rate. As a result, GSA overbilled WHS, WHS spent
    considerable time trying to review and reconcile GSA bills, and GSA overstated
    its accounts receivable from DoD.

    Duel Charges for the Same Space. GSA sometimes charged twice for the same
    office space. For two of the eight buildings, GSA overcharged WHS about
    $2.7 million for new lease amounts while still billing for old leases. GSA failed
    to adjust the bills or issue credits for the overcharged amounts. For example,
    GSA negotiated a new lease for DoD customers occupying space within Crystal
    Plaza VI effective December 1, 1998. The old lease did not expire until
    January 31, 1999. From December 1998 through January 1999, GSA billed WHS
    for both the old and new lease amounts. As a result, GSA overbilled WHS about
    $325,000.

    Space Not Occupied. GSA billed WHS about $1.6 million for space that DoD
    no longer occupied. When WHS returned space to GSA, GSA did not always
    remove the returned space from the CBRs and adjust the bills accordingly. For
    example, after giving GSA appropriate notification, WHS returned space in the
    Hoffman II building to GSA on November 1, 1998. However, GSA billed WHS
    about $1 million from November 1998 through March 1999.

    Adjusting Rental Rates. GSA did not adjust rental rates appropriately. As a
    result, GSA charged WHS about $716,000 more in rent than should have been
    charged for two leased properties. In both cases, GSA did not promptly reduce
    the rent until after the effective date of the new lease. For example, GSA
    combined two leases for Hoffman I and reduced the rental rate. The new rental
    rate was effective on January 1, 2000, but GSA did not apply the new rate until
    May 2000. As a result, GSA overcharged WHS by about $344,000.

    Security Charges on Delegated Buildings. GSA inappropriately billed WHS
    about $255,000 for security charges on six of the eight buildings. Although GSA
    delegated responsibility to WHS for providing security on the six buildings, GSA
    billed WHS for security charges.

    Parking Charges Included in Leases. GSA charged WHS about $166,000 for
    parking spaces that were already included in the annual rental rate. For example,
    a lease for Crystal Gateway North included 36 parking spaces in the rental rate.
    However, from October 1997 through May 1999 and from April through June
    2001, GSA billed WHS about $118,000 for the parking spaces.


WHS Rebilling Procedures
    WHS did not rebill DoD customers a net $8.9 million of the $124.9 million that
    GSA billed on the eight buildings we reviewed. WHS did not rebill DoD
    customers the same amount that GSA billed because WHS found errors in the
    GSA bills. However, WHS neither maintained an adequate audit trail for the
    changes made to the amounts charged by GSA nor took sufficient actions to work
    with GSA to get identified problems corrected. In addition, WHS improperly


                                        6
computed annual rental rates, charged for parking spaces that were included in
leases, and did not adequately communicate with GSA on issues related to rent
bills. WHS may not have charged DoD customers about $3.2 million for the
rented space they occupied, and DoD customers did not have complete
information as to their liability for unpaid rent bills. The new WHS software
application for rebilling rent should provide more visibility over the billing
process.

Tracking Charges Made to GSA Bills. WHS did not maintain an adequate audit
trail for the changes it made to the amounts charged by GSA on rent bills. If
WHS determined that the GSA bill was in error, WHS would adjust the WHS bill
for DoD customers before sending the bill to the DoD customers. For the eight
buildings, documentation was not available to identify the support for about
$1.7 million in adjustments that WHS made to the GSA bills. For example, from
June 1999 through June 2000, WHS applied a rental rate reduction of about
$1 million to the bills of DoD customers occupying Crystal Gateway North
without documenting the reason, and GSA had no records authorizing the
reduction. The lack of adequate support for the adjustments that WHS made to
GSA bills and a formal dispute process (finding B) made it difficult to identify,
track, and resolve billing differences and issues.

Miscalculation of Rental Rates. WHS did not always calculate rental rates
accurately for DoD customers. WHS personnel did not always increase the
annual rental rates when GSA raised its rental rates. Further, WHS sometimes
miscalculated the annual rental rates.

        Understated Rental Rates. During the first month of each new fiscal
year, WHS calculated the annual rate per square foot using data in WHS records.
However, when a rate change in the lease occurred during the year, WHS did not
always recalculate the annual rental rate. For six of the eight buildings, WHS
undercharged DoD customers by about $2.3 million. For example, GSA
negotiated a lease extension on Ballston Tower One that was effective on
December 1, 2000. The extension increased the rent by about 55 percent. GSA
started billing the new rate in February 2001. However, WHS did not increase the
rental rate it charged to DoD customers. As a result, WHS understated the
amount DoD customers in the building owed GSA by $543,000 for the 4-month
period from March 1 through June 30, 2001.

       Overstated Rental Rates. WHS personnel sometimes miscalculated
annual rental rates and overcharged DoD customers by about $575,000. For
example, WHS miscalculated the annual rental rate that was used to bill DoD
customers for space in 601 North Fairfax. As a result, DoD customers in the
building were overbilled by about $102,000 in the first nine months of FY 2001.

Billing for Parking Charges. WHS charged DoD customers about $203,000 for
parking spaces that were included in the lease price. For example, for three
periods of time between October 1, 1997, through June 30, 2001, DoD customers
in Crystal Gateway North were inappropriately charged about $159,000 for
parking spaces that were included in the lease.




                                    7
    WHS Billing Process. WHS used a manual labor-intensive process to calculate
    its quarterly rent bills to DoD customers. The information received from GSA on
    monthly rent bills and CBRs was manually entered into a computer software
    application to produce quarterly bills that were sent to DoD customers occupying
    buildings in the NCR. In April 2002, WHS implemented a new software
    application for billing rent to DoD customers. The new program uses the GSA
    bill to create monthly WHS rent bills and retains a history of prior billings so that
    a report can be produced to identify variances in the data used to compute bills.
    The variance report will highlight changes in building rates and square footage
    occurring in the GSA bills. The new WHS rent rebilling program should make it
    easier for WHS to rebill, identify changes in the GSA bills, and track differences
    between GSA bills and amounts that are rebilled to DoD customers.


Payments Made to GSA
    Accounting for Rent Payments in GSA Records. GSA Finance did not always
    apply the rent payment to the correct bill. For example, DFAS Indianapolis,
    Indianapolis, Indiana, sent a payment for $350,482 to GSA Finance for the
    August 1999 bill. However, GSA incorrectly applied the payment to the August
    2000 bill. When notified of the situation, GSA Finance told us that the payment
    would be applied against the correct bill.

    Monitoring the Status of Payments. We did not determine whether all DoD
    customers in the eight buildings paid the entire amount billed by WHS for the
    45-month period ending June 30, 2001. DFAS Kansas City, Kansas City,
    Missouri, had problems accounting for the funds of DoD customers before
    June 1999 (finding C). However, according to DFAS Indianapolis payment
    records, since December 1999, DoD customers paid most of the bills from WHS.
    Also, since November 2000, DFAS Indianapolis prepared a report that it sent to
    WHS every 2 weeks that showed the status of payments and identified the DoD
    customers with unpaid rent bills. The report compared the amounts paid with the
    amounts rebilled by WHS for each DoD customer and identified the reasons that
    DoD customers did not pay their bills. As of March 8, 2002, the DFAS
    Indianapolis report showed that three DoD customers owed GSA about
    $1.5 million. For example, the Army and Navy had not paid about $1.4 million
    for real estate taxes for 1999 and 2000 because they initially questioned the
    validity of the charges and subsequently were not provided a breakdown of the
    charges by calendar year. Payment processing should improve further when
    WHS bills DoD customers monthly and GSA Form 2992, “Adjustment Voucher
    for Standard Level User Charge Transaction,” is used to formally dispute rent
    charges (finding B).

Conclusion
    The GSA rent bills sent to WHS often overstated the amount that was due because
    the bills contained inaccurate information. However, WHS did not take sufficient
    actions to work with GSA to get the problems corrected. Detailed analysis of
    information on 8 of the 161 buildings showed common types of problems that led


                                          8
    to inaccuracies in GSA bills and the bills WHS sent to DoD customers in the
    NCR. Based on the results of the review of the eight buildings, we expect the
    errors to be significantly larger if the accuracy of the bills were reviewed for all
    161 buildings.

    WHS and GSA should form an integrated process action team to resolve
    significant differences between the amounts that GSA billed WHS and the
    amounts that WHS rebilled to DoD customers for each of the 161 buildings in the
    NCR. The integrated process action team should give priority to reconciling
    significant differences in records from July 1, 2001, through March 31, 2002, so
    that the new WHS rent rebilling program uses correct information to generate
    bills. Based on the results, WHS and GSA should make appropriate adjustments
    to the records. Procedures should also be established to ensure that differences
    between GSA bills and the amounts that WHS rebills to DoD customers are
    routinely identified, documented, and tracked to resolution so that mistakes can be
    promptly corrected and bills can be paid in a timely manner.


Recommendations and Management Comments
    A.1. We recommend that the Director, Washington Headquarters Services,
    in conjunction with the Commissioner, Public Buildings Service, General
    Services Administration, form an integrated process action team to reconcile
    the amounts the General Services Administration billed that Washington
    Headquarters Services disputed. The reconciliation should include the
    amounts posted to the accounts receivable records at the General Services
    Administration for all buildings in the National Capital Region. The
    following priorities should be established:

            a. Reconcile significant differences in records from July 1, 2001,
    through March 31, 2002, so that the Washington Headquarters Services new
    billing system uses correct information to generate bills.

    WHS Comments. WHS concurred and stated that WHS and GSA have formed
    an integrated process action team that includes DFAS representatives to identify
    disputed differences between GSA bills and amounts rebilled by WHS. The team
    has developed data to compare billing amounts, by building, to reconcile
    significant differences in records from July 1, 2001, through the present. Since
    the implementation in April 2002 of the new WHS rent rebilling program,
    significant differences have been identified and resolved within two billing
    cycles.

          b. Reconcile significant differences in records from October 1, 1997,
    through June 30, 2001.

    WHS Comments. WHS concurred and stated that the team has also developed
    data to compare billing amounts, by building, to reconcile significant differences
    in records from October 1, 1997, through June 30, 2001. Those records will be




                                          9
analyzed and decisions will be made by the next team meeting in October 2002.
WHS commented that further actions to resolve significant differences would be
completed by December 2002.

A.2. We recommend that the Director, Washington Headquarters Services:

        a. Establish procedures to identify, document, and track differences
between the amounts billed to Washington Headquarters Services by the
General Services Administration and the amounts rebilled to DoD customers,
so that disputes can be promptly corrected and bills can be paid in a timely
manner.

WHS Comments. WHS concurred and stated that WHS, in coordination with
GSA, has established procedures to identify, document, and track bill differences
so net disputes can be promptly resolved and bills paid in a timely manner.

        b. Bill DoD customers for amounts owed that are identified as a
result of the joint reconciliation of differences between the amounts billed to
Washington Headquarters Services by the General Services Administration
and the amounts rebilled to DoD customers from October 1, 1997, through
March 31, 2002.

WHS Comments. WHS concurred and stated that once the joint reconciliations
are complete, WHS will rebill customers for the amounts still owed to GSA.
WHS will rebill those customers in the eight buildings first.

        c. Coordinate with the General Services Administration to ensure
that:

           (1) The Public Buildings Service, National Capital Region issues
rent credits to the Washington Headquarters Services for overcharged
accounts and enters those credits into the System for Tracking and
Administering Real Property.

WHS Comments. WHS concurred and stated that GSA has already issued
credits on the eight buildings totaling about $3.8 million. Four prior rent credit
adjustments totaling $324,957 were identified for the Crystal Plaza VI building.
By September 2002, WHS and GSA will reconcile the remaining $1.6 million in
rent credits in the Hoffman II and Crystal Plaza VI buildings. As they occur, all
future STAR rent credits resulting from the joint reconciliation will be
coordinated with GSA and tracked to ensure that they are posted to rent bills.

           (2) The Executive Director, Accounting and Financial Services,
Greater Southwest Region, corrects amounts posted to the accounts
receivable records based on the resolution of differences between the
amounts the General Services Administration billed to Washington
Headquarters Services.

WHS Comments. WHS concurred and will monitor the BART system to ensure
rent credits are posted correctly.



                                    10
           B. Resolving Rent Disputes
           The process for resolving disputes on GSA rent bills for space in
           commercial buildings in the NCR was not effective. Disputed issues on
           GSA rent bills were not effectively communicated between WHS and
           GSA. The rent dispute process was not effective because:

              •   WHS informally notified GSA of bill discrepancies, but did not
                  have a mechanism in place to formally document, track, or resolve
                  disputes;

              •   WHS and GSA did not follow the formal procedures in the GSA
                  Pricing Desk Guide for processing rent disputes;

              •   DoD customers within the NCR did not always have sufficient
                  information to dispute rent bills; and

              •   41 of the 44 occupancy agreements between GSA and WHS were
                  not finalized.

           Unless GSA and WHS work together to improve communications, billing
           problems will continue to occur.


Guidance for Disputing Rent Charges
    Pricing Desk Guide. First introduced in 1996, the GSA Pricing Desk Guide
    contains the pricing policies and procedures for the PBS. The Pricing Desk Guide
    establishes the rent dispute process for all customers that occupy space rented
    through GSA. The guide describes both a formal and informal process for
    disputing rent charges. The guide also establishes the need for an occupancy
    agreement (OA) between GSA and each of its customers.

            Formal Process. In the formal process, the customer disputes rent
    charges by submitting a GSA Form 2992, “Adjustment Voucher for Standard
    Level User Charge Transaction,” along with supporting documentation, to the
    appropriate GSA Regional Administrator. The GSA Regional Administrator
    notifies the customer in writing of the decision on the dispute. If the dispute is
    denied, the customer can appeal to the PBS Commissioner. If the customer is not
    satisfied, the dispute can be referred to the Administrator, GSA for a final
    decision. For disputes on space assignments in the NCR, WHS sent the GSA
    Form 2992 to the Finance Division, Fort Worth, before it was routed to the GSA
    NCR.

            Informal Process. When a customer informally disputes rent charges, the
    customer requests the GSA Regional Office to review or explain the basis of a
    rent charge for a specific space assignment. The informal process for disputing
    rent charges is usually completed by telephone or e-mail.




                                        11
             Occupancy Agreements. The OA is a complete, concise statement of the
     business terms governing the relationship between GSA and the customer for a
     specific space assignment. The OA consists of four parts:

            •   description of space and services,

            •   terms and conditions,

            •   financial summary, and

            •   signature page.

     Although the OA is not a lease, it is the formal mutual agreement between GSA
     and its customer. GSA and WHS decided to establish an OA for each new
     building lease and for each lease that expired and was renewed or extended.

     Revised GSA Pricing Desk Guide. In March 1998, GSA revised the GSA
     Pricing Desk Guide. In June 1998, GSA moved from quarterly billings to
     monthly billings when it implemented the STAR. Many of the changes in the
     revised pricing guide became effective with the use of STAR.


Rent Bill Disputes
     WHS and GSA did not have an effective rent dispute process for commercial
     buildings in the NCR. Since June 1998, GSA stopped using the guidance in the
     GSA Pricing Desk Guide for resolving disputed rent bills in the NCR. Neither
     WHS nor GSA had a mechanism in place to formally document, track, and
     resolve rent bill disputes.

     Process for Disputing Rent Bills in the NCR. Before June 1998, WHS and
     GSA used GSA Form 2992 to officially report disputes about rent bills. WHS
     stated that GSA verbally requested that WHS stop using GSA Form 2992.
     Instead, WHS was asked to contact the GSA realty specialist by telephone or
     e-mail and provide the realty specialist with the information needed to research
     the disputed matter.

     Tracking Rent Bill Disputes. Neither WHS nor GSA had a mechanism in place
     to formally document and track the status of rent bill disputes in the NCR.

              Use of Informal Process for Disputing Rent Charges. WHS did not
     establish procedures to document and track the status of rent bill disputes after it
     stopped using GSA Form 2992 to communicate rent bill disputes with GSA.
     WHS personnel told us that problems with the GSA bills were brought to the
     attention of the GSA realty specialists. WHS sometimes annotated on a
     spreadsheet information regarding a discussion or e-mail related to the dispute.
     WHS adjusted the bills sent to DoD customers in anticipation that the next GSA
     rent bill would reflect the correction or adjustment. Although GSA corrected
     some matters on the subsequent bill, WHS did not track the disputes to ensure that
     future rent bills reflected the corrections and that GSA accounts receivable


                                         12
    records showed the adjusted balance on the disputed bill. When we tried to obtain
    information on disputes for eight buildings (finding A), WHS was not able to
    provide documentation that showed it informed GSA of the disputes that led to
    WHS billing DoD customers for different amounts than GSA billed WHS.

            Handling Disputes from WHS. GSA had not developed procedures to
    follow up on disputes processed informally by WHS and ensuring that
    adjustments were posted to the proper GSA bill. GSA realty specialists did not
    maintain receipt and status records of rent bill disputes from WHS. The realty
    specialist was to communicate and resolve issues with the customer and inform
    GSA Finance of rent disputes to be posted in the BART system. GSA realty
    specialists handled all disputes from WHS, but did not communicate relevant
    information to GSA Finance when they made billing adjustments in STAR.
    Consequently, the GSA accounts receivable balance with DoD was misstated and
    rent collected was not posted to the correct bill in the BART system. GSA Forms
    2992 should have been used to track disputes by bill number.

             Quantifying Unresolved Disputes. The total number and dollar value of
    rent bill disputes was unknown because neither GSA nor WHS had sufficient
    documentation. From October 1997 through June 2001, WHS did not rebill
    $81.7 million in rent billings to DoD customers (finding A). However, we could
    not ascertain that WHS disputed the amounts on the GSA rent bills that WHS did
    not rebill to DoD customers. As of September 3, 2001, the BART system did not
    show any amounts that WHS disputed. To communicate and document the rent
    disputes between GSA and WHS, GSA and WHS need to reinstitute the use of
    GSA Form 2992 and periodically meet to resolve rent issues.


Occupancy Agreements for Leases in NCR
    GSA and WHS did not have mutually agreed upon OAs for each DoD space
    assignment in the NCR. Since January 2001, GSA provided 44 draft OAs to
    WHS for leased space that DoD customers occupied. However, WHS initially
    refused to sign most of the OAs until concerns were adequately addressed. WHS
    believed that GSA records were not correct and the OAs did not clearly and
    consistently reflect needed information. As of May 2, 2002, GSA and WHS had
    both signed only 3 of the 44 OAs. WHS should establish a time-phased plan and
    process to resolve the remaining OAs in dispute with GSA. If GSA and WHS had
    signed OAs on each of the buildings, disagreements on the rent bills may have
    been minimized.

    In addition, because DoD customers did not have OAs, DoD customers could not
    readily dispute their bills. The DoD customers did not have the description of
    space and services, terms and conditions of the lease, or a financial summary that
    the OA would have given them. For buildings with OAs, WHS should provide
    DoD customers with a copy of the OAs and other pertinent information needed by
    the DoD customers to manage assigned space. For buildings that GSA will not




                                        13
    provide an OA within the next year, WHS should provide DoD customers with
    relevant information related to the description of space and services, terms and
    conditions of existing leases, and a financial summary of assigned space.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Director, Washington Headquarters Services,
    in coordination with the Administrator, General Services Administration:

          a. Use General Services Administration Form 2992 to communicate
    and document the rent disputes between General Services Administration
    and Washington Headquarters Services, and

           b. Meet periodically to resolve unsettled rent issues.

    WHS Comments. WHS concurred and stated that in February 2002, WHS and
    GSA reinstituted the use of GSA Form 2992 to document all rent disputes. In
    April 2002, WHS started using the new rent rebilling software application to
    identify variances between WHS and GSA data and information for use on the
    GSA Form 2992. As of August 8, 2002, WHS submitted 457 disputes totaling
    about $55.4 million to the GSA Finance Center. Management also stated that
    WHS and GSA have held periodic meetings since February 2002. Regular
    communication with the GSA Finance Center occurs with each WHS submission
    of a GSA Form 2992. Further, WHS and GSA will meet monthly to discuss and
    resolve new and unsettled rent issues.

    B.2. We recommend that the Director, Washington Headquarters Services:

           a. Establish a time-phased plan and process to resolve the occupancy
    agreements in dispute with the General Services Administration and provide
    relevant information to DoD customers in buildings without occupancy
    agreements, and

           b. Provide each DoD customer with pertinent information needed by
    the DoD customers to manage assigned space. Provide a copy of the signed
    occupancy agreements to affected DoD customers. If an occupancy
    agreement has not been signed or does not exist, provide affected DoD
    customers with relevant information related to the description of space and
    services, terms and conditions of existing leases, and a financial summary of
    assigned space.

    WHS Comments. WHS concurred and stated that through a mutual concerted
    effort, WHS and GSA have resolved the vast majority of the OA disputes. As of
    August 8, 2002, WHS has received 103 OAs from GSA and has signed and
    returned 81 OAs to GSA for signature. The remaining 22 OAs require further
    action by either WHS or GSA before they are signed. WHS and GSA plans to




                                        14
complete the remaining actions and execute all future OAs in a timely manner.
WHS provides pertinent information on all space assignments to its DoD
customers in the NCR, including information contained in the OAs.

Audit Response. The WHS comments were partially responsive. Although
management stated that they provide pertinent information on all assigned space
to its DoD customers in the NCR, WHS did not address the need to provide a
copy of the OAs to affected DoD customers. In addition, WHS did not provide
DoD customers with the financial information they need to manage their assigned
space. Each customer needs a copy of the OA and pertinent financial information
to adequately review its bills and dispute charges the customer believes are in
error. We request that WHS provide additional comments on the final report.




                                   15
            C. Paying Rent Bills
            DoD customers did not pay, or DFAS Kansas City did not forward to
            GSA, about $20.7 million in rent bills passed on by WHS. DFAS Kansas
            City did not establish controls to ensure that funds collected from DoD
            customers were properly accounted for and paid to GSA. Until November
            2000, WHS and DFAS did not have procedures to ensure that all DoD rent
            bills in the NCR were paid. As a result, GSA rent bills remained unpaid
            for extended periods of time.


Processing Rent Bills for Payment
     When DoD customers receive the WHS rent bills, they are to verify the rent bills
     and authorize DFAS to pay the bills. Billing problems are to be brought to the
     attention of WHS for resolution. DFAS sends the payment to GSA Finance citing
     the GSA bill number. GSA Finance is to apply the payments against the
     appropriate WHS rent bill. Prior to June 1999, DFAS Kansas City was
     responsible for accumulating and making rent payments to GSA for DoD
     customers in the NCR. Since then, DFAS Indianapolis has been responsible for
     accumulating and making payments to GSA.


DFAS Processing of Rent Payments
     Accounting for Older Payments. WHS rebilled DoD customers about
     $20.7 million in GSA rent bills that were either not paid by DoD customers or not
     forwarded to GSA by DFAS Kansas City. DFAS Kansas City did not properly
     account for rent payments received by DoD customers from October 1997
     through May 1999.

            DFAS Payment Records. In November 2001, DFAS Kansas City
     records indicated that nine DoD customers had not paid about $27.2 million in
     GSA rent bills. DFAS Kansas City also acknowledged having received about
     $6.5 million in rent payments from unknown DoD customers. In December 2001,
     DFAS Indianapolis requested that each of the nine DoD customers review
     information DFAS Kansas City compiled and provide either proof that
     authorization to pay the rent bills had been sent to DFAS or authorization was
     made to pay the amounts owed. As of March 14, 2002, correspondence and
     documentation received from DoD customers indicated that the information that
     DFAS Kansas City had compiled on the status of payments was inaccurate.

             Status of Payments. Some DoD customers provided information that
     showed payment authorizations were processed and DFAS charged the accounts
     for the rent payments. Other DoD customers authorized DFAS to pay rent bills,
     including some from FY 1997. DFAS Indianapolis was working with other DoD
     customers to determine the status of accounts. Table 2 provides the status of
     payments as of March 14, 2002.



                                        16
     Table 2. Status of Payments Accounted for by DFAS Kansas City
                                   (in thousands)
    DoD          Identified
  Customer     Underpayment                     Status of Research
 WHS            $ 8,498       Provided documentation showing that funds were paid to
                              DFAS Indianapolis, not DFAS Kansas City.
 NIMA             8,476       Provided documentation showing that funds were paid to
                              DFAS Kansas City.
 DISA             6,795       Applied $6.5 million “Unknown” to DISA, research
                              continues.
 DLA              1,901       Did not respond to DFAS inquiries.
 DSS              1,288       Requested copies of invoices.
 JTAMDO              94       Did not respond to DFAS inquiries.
 DTRA               61        Error in billing.
 MFRC                20       Did not respond to DFAS inquiries.
 SOUTHCOM            18       Paid after contacted by DFAS Indianapolis.
 Total          $27,151

 NIMA              National Imagery and Mapping Agency
 DISA              Defense Information Systems Agency
 DLA               Defense Logistics Agency
 DSS               Defense Security Service
 JTAMDO            Joint Theater Air and Missile Defense Organization
 DTRA              Defense Threat Reduction Agency
 MFRC              Military Forces Recruiting Command
 SOUTHCOM          Southern Command


Although two DoD customers provided documentation showing that they had
paid rent bills, DFAS could not provide documentation that they had sent the
payment for one of the two to GSA Finance. DFAS Indianapolis and DFAS
Kansas City also researched $6.5 million from unknown DoD customers, and on
March 14, 2002, provided documentation that showed the funds related to
payments from DISA. Additional funds related to rent payments may also have
been in suspense accounts. Poor record keeping by DFAS Kansas City
contributed to its inability to determine which DoD customers furnished the
funds. Overall, controls did not ensure that funds collected from DoD customers
were properly accounted for and paid. As a result, GSA rent bills remained
unpaid for extended periods of time. DFAS should work with GSA and affected
DoD customers to ensure that authorized rent payments are properly accounted
for and unpaid amounts are remitted to GSA.

Improved Operating Procedures. Until November 2000, WHS did not have
procedures to ensure that all DoD rent bills in the NCR were paid. DFAS Kansas
City transferred the responsibility for processing rent payments received from
DoD customers in the NCR to DFAS Indianapolis in the 3rd quarter of FY 1999.
After a short transition period, DFAS Indianapolis improved procedures for


                                     17
    paying GSA. In November 2000, DFAS Indianapolis began preparing a report
    that it sent to WHS every 2 weeks that showed the status of payments and
    identified DoD customers with unpaid rent bills. The report compared the amount
    that each DoD customer paid with the amount WHS rebilled for each DoD
    customer and identified the reasons the DoD customer said they did not pay the
    bills. Payment processing should further improve in April 2002 when WHS starts
    to bill DoD customers monthly.


Recommendation and Management Comments
    C. We recommend that the Director, Defense Finance and Accounting
    Service, resolve all outstanding differences between rent payments collected
    from DoD customers and amounts remitted to the General Services
    Administration to ensure that authorized rent payments are properly
    accounted for and collected amounts are remitted to the General Services
    Administration. Specifically:

           1. Follow up with DoD customers who did not respond to previous
    inquiries to ensure that rent payments are properly accounted for and
    unpaid amounts are collected and remitted to the General Services
    Administration.

          2. Verify funds received from DoD customers to ensure that funds are
    properly accounted for and sent to the General Services Administration.

           3. Coordinate with the General Services Administration to ensure
    that rent payments are accurately posted in General Services Administration
    records.

    DFAS Comments. DFAS concurred and stated that all outstanding differences
    between rent payments collected from DoD customers and amounts remitted to
    GSA will be resolved and reconciled.




                                      18
Appendix A. Scope and Methodology

Scope
    Work Performed. We evaluated procedures for processing rent bills for space
    assigned to DoD customers in the NCR. We limited our review of rent bills and
    payments to DoD customers in the NCR because 93 percent of all DoD
    delinquent rent bills were concentrated in the NCR. GSA billed WHS a total of
    about $781 million for space occupied by DoD customers in 161 buildings in the
    NCR from October 1, 1997, through June 30, 2001. WHS rebilled $699.3 million
    of the $781 million to DoD customers. To determine why WHS rebilled DoD
    customers $81.7 million less than GSA billed WHS, we initially reviewed bills
    covering the period from July 1999 through June 2001. We judgmentally selected
    eight buildings for a detailed review. From July 1999 through June 2001, WHS
    rebilled the DoD customers in five of the eight buildings at least $500,000 less
    than the amount that GSA billed WHS. For the other three buildings, WHS
    rebilled DoD customers more than GSA billed WHS. We reviewed GSA bills
    totaling $124.9 million for the eight buildings for the period October 1, 1997,
    through June 30, 2001. We reviewed WHS records that supported the
    $116 million that WHS rebilled DoD customers in the eight buildings and
    $8.9 million (net) that was not passed on to DoD customers.

    We evaluated the procedures used by DFAS to pay GSA. We also reviewed the
    actions taken by DFAS Kansas City, DFAS Indianapolis, and DoD customers to
    resolve $27.2 million in GSA rent bills that DFAS Kansas City records indicated
    had not been paid. Further, we reviewed how GSA Finance applied the payments
    received from DFAS to the WHS bills in the BART system. In addition, we
    reviewed the procedures that DoD and GSA used to resolve delinquent rent bills
    for space assigned to DoD customers in commercially leased buildings in the
    NCR.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.


Methodology
    We compared the GSA bills sent to WHS to the amounts WHS rebilled to DoD
    customers, considering the BMF charges on delegated buildings and other
    adjustments. We reviewed procedures and records generated by the Assignment
    Record and Rent Management/Office of the Secretary to Defense Rebill system
    used by WHS personnel to generate rent bills sent to DoD customers. To
    determine the reasons for the differences between the amounts GSA billed WHS
    and the amounts WHS rebilled DoD customers for the eight buildings, we
    performed a detailed review of GSA bills, CBRs, and WHS records. To evaluate
    procedures for paying rent bills, we reviewed DFAS Indianapolis procedures for



                                        19
    obtaining and processing information obtained from DoD customers that was
    needed to make payments to GSA. We also compared GSA accounts receivable
    records with DFAS Indianapolis payment records.

    To determine the procedures WHS used to resolve delinquent GSA rent bills, we
    reviewed records and interviewed personnel in the Real Estate and Facilities
    Directorate, Space Policy and Acquisition Division. We also interviewed GSA
    personnel in the Public Buildings Service, Property Acquisition and Realty
    Services, NCR to identify procedures GSA used to resolve delinquent DoD rent
    bills. We reviewed applicable guidance documents and the information posted in
    the BART system on WHS bills from July 1, 1999, through June 30, 2001. To
    determine the procedures for reviewing and disputing bills and processing
    payment authorizations to DFAS, we visited or contacted four DoD customers
    that occupied one or more of the 161 buildings. We did not contact each of the
    DoD customers that occupied the eight buildings selected for review. The Office
    of the Inspector General of the Department of the Department occupied parts of
    two of the eight buildings we selected for a detailed review.

    Use of Computer-Processed Data. We relied on computer-processed data in the
    GSA BART system and STAR. We also relied on the WHS Assignment Record
    and Rent Management/Office of the Secretary to Defense Rebill system.
    Although we relied on computer-processed data from those systems, we did not
    evaluate the adequacy of the systems’ general and application controls. However,
    we established data reliability for the information we reviewed on the eight
    buildings by comparing data output to source documents. Our comparison
    disclosed that the data were sufficiently reliable to support the audit conclusions
    and recommendations.

    Audit Dates and Standards. We performed this audit from June 2001 through
    May 2002, in accordance with generally accepted government auditing standards.
    We did not evaluate the management control program because GSA requested the
    audit. Our analysis of information on two buildings that we occupied may be
    perceived to be not totally independent. However, we performed the same
    detailed analysis of information on each of the eight buildings we reviewed.

Prior Coverage
    Inspector General, GSA, Report No. A000986/B/6/F01004, “Review of GSA’s
    Billing and Collection Processes for Federal Customers,” January 26, 2001




                                        20
Appendix B. Buildings Reviewed
    We reviewed the differences in billings between GSA and WHS over the period
    October 1, 1997, through June 30, 2001, for eight buildings in the NCR. Based
    on the records provided to us, we calculated that $8.7 million in net adjustments
    may need to be made. GSA overstated amounts charged to WHS by about
    $5.5 million and WHS understated amounts charged to DoD customers by
    about $3.2 million. GSA sent bills to WHS that were not always accurate.
    Although WHS appropriately did not rebill most erroneous costs billed by GSA,
    the rent bills WHS sent to DoD customers often understated the amounts that
    DoD customers owed. The amounts we calculated as incorrect charges were
    based on available documentation and may not have included all agreements,
    bills, and credits.

400 Army Navy Drive
    GSA overcharged WHS by $121,852. GSA inappropriately billed WHS a total of
    $74,029 for building security and $47,823 for parking.

           •   GSA billed WHS a total of $74,029 for building security charges for
               March 1999, October 1999 through April 2000, and October 2000
               through June 2001.

           •   GSA billed WHS a total of $47,823 for parking spaces that were
               included in the lease price in FYs 1998 and 1999.

    WHS undercharged the DoD customers in 400 Army Navy Drive by a total of
    $799,844. WHS undercharged DoD customers by $844,112 by incorrectly
    calculating the rental rate. WHS overcharged DoD customers by $44,268 for
    parking.

           •   The annual rental rates WHS billed DoD customers in FYs 1999,
               2000, and 2001 were not calculated correctly. The rate charged was
               understated by $.67 per square foot for the 2nd through 4th quarters of
               FY 1999, $.24 per square foot in FY 2000, and $.32 per square foot in
               FY 2001. In total, WHS undercharged DoD customers by $844,112.

           •   WHS billed DoD customers for parking from October 1998 through
               September 1999. Because parking was included in the lease cost,
               WHS overcharged DoD customers by $44,268.

Crystal Gateway North
    GSA overcharged WHS by a total of about $2.5 million. GSA double billed
    $2,406,389 and inappropriately charged $118,272 for parking and $24,513 for
    security.




                                        21
            •   GSA combined multiple leases from March through October 1999 and
                billed twice for the same space, but never issued WHS a credit for the
                double billing. In January 2000, GSA signed a new lease and issued a
                new CBR that replaced the existing lease and CBR. The new CBR
                was back billed to the start of the lease date, June 1999. GSA did not
                issue a credit to WHS for $1,181,956. In January 2000, GSA issued
                CBR No. VA0057202 to replace various other CBRs. The new CBR
                back billed the new amount to March 1999. The CBRs that were
                replaced also billed WHS for $1,224,433 for the same space.

            •   GSA billed WHS a total of $118,272 for parking spaces that were
                included in the lease from October 1997 through May 1999 and from
                March through June 2001.
            •   GSA billed WHS a total of $24,513 for security charges on various
                CBRs for various times from August 1998 through June 2001.

    WHS undercharged DoD customers in Crystal Gateway North by $1.1 million.
    WHS inappropriately reduced the rental rate charged to DoD customers and
    undercharged its customers by $1,024,932. WHS also failed to include the GSA
    PBS fee, totaling $260,691, in the calculation of its rental rate. In addition, WHS
    inappropriately charged its DoD customers $158,662 for parking. In total, DoD
    customers were undercharged by $1,126,961.

            •   WHS took a rental rate reduction of $1,024,932 from July 1999
                through June 2000 that GSA did not authorize.

            •   From February through September 2000, GSA included a PBS fee in
                the WHS bill that totaled $260,691. However, WHS did not adjust its
                annual rental rate to its DoD customers to include the PBS fee.

            •   GSA inappropriately charged $158,662 for parking from October 1997
                through September 2000 and from April through June 2001. WHS
                passed the charges on to its DoD customers.

Hoffman I
    GSA overcharged WHS by a total of $355,221. GSA inappropriately charged
    $11,555 for security and overstated its rental rate and overcharged WHS by
    $343,666.

            •   GSA charged $11,555 to WHS for security charges from April through
                June 2001. Since that was a delegated building, a charge for security
                should not have been included in the bills.

            •   In January 2000, two leases were combined and billed as CBR
                No. VA0019547. As a result, the annual rental rate decreased from
                $21.98 to $18.07 per square foot. Although the rental rate reduction




                                        22
               should have occurred in January 2000, GSA did not apply the new
               rental rate until May 2000. GSA overcharged WHS by a total of about
               $343,666 from January through April 2000.

    WHS undercharged DoD customers in Hoffman I by $531,486. WHS
    undercharged DoD customers by $69,134 by inappropriately lowering the rental
    rate. WHS also failed to increase the annual rental rate and undercharged the
    DoD customers by $462,352.

           •   Instead of increasing the rental rate by $.0125 per square foot to
               compensate for an increase in BMF charges, WHS lowered the rental
               rate. WHS undercharged DoD customers by $69,134 from October
               2000 through March 2001.

           •   In April 2001, GSA raised the annual rental rate by 32 percent.
               However, WHS did not raise rental rates. The total amount
               undercharged during April, May, and June 2001 was $462,352.

Hoffman II
    GSA overcharged WHS by a total of $1,518,433. GSA inappropriately charged
    $1,074,022 for space that was turned in by WHS. GSA also inappropriately
    charged WHS a total of $72,013 for building security and did not give WHS a
    credit for $372,398 for an entitled reduction in rates.

           •   On November 1, 1998, WHS returned approximately 175,000 square
               feet of space in the Hoffman II building to GSA. However, GSA
               continued to charge WHS for the space until March 1999. GSA billed
               WHS $1,074,022 during the four months.

           •   GSA signed a supplemental lease agreement that decreased the rental
               rate beginning on August 6, 1999. However, GSA did not apply the
               credit until October 1, 1999. GSA did not issue a credit to WHS for
               $372,398 that was overcharged to WHS in August and September
               1999.

           •   GSA inappropriately billed WHS $72,013 for security charges from
               October 1999 through June 2001.

    WHS undercharged DoD customers in Hoffman II by $365,145. Since March
    1999, WHS charged DoD customers for a different amount of space than GSA
    charged WHS. From March 1999 through February 2000 and from May 2000
    through June 2001, WHS overcharged its customers by $438,088. In March and
    April 2000, WHS undercharged its customers by $91,577. The following table
    quantifies the amounts that WHS incorrectly charged DoD customers.




                                       23
                                     WHS Space Charges in Hoffman II
                                              Square Feet
                                              Overcharge             Monthly Cost per           Amount of Overcharge
              Billing Period                 (Undercharge)            Square Foot*                (Undercharge)
     March 1999                                 12,756                   $1.81                      $ 23,077*
     April - September 1999                     13,963                    1.81                       151,564*
     October - December 1999                     8,511                    1.26                         32,172
     January - February 2000                    43,481                    1.26                        109,572
     March 2000                                (52,518)                   1.26                        (66,173)
     April 2000                                (20,162)                   1.26                        (25,404)
     May - June 2000                            9,072                     1.26                         22,861
     July - September 2000                       5,056                    1.87                         28,314*
     October 2000 - March 2001                   5,056                    2.15                         65,071*
     April - June 2001                             848                    2.15                          5,457*
     Total                                                                                          $346,511*

     *The monthly cost per square foot is rounded and, if used, would cause the amount of overcharge to be slightly different
       than actual amount of overcharge in the table.



    In third quarter FY 2001, GSA billed WHS $506,328 in other charges. In June
    2001, GSA billed WHS additional charges of $205,328. Initially, WHS was not
    sure what the charges were for and did not rebill DoD customers. WHS later
    found out that those charges were for real estate taxes and subsequently billed the
    DoD customers.

Skyline VI
    GSA overcharged WHS by a total of $36,180. GSA inappropriately charged
    $22,230 to WHS for security charges and did not give $13,950 to WHS in
    operations delegation credits. GSA also did not apply a credit to the proper
    monthly bill.

               •     GSA inappropriately charged WHS $22,230 for building security from
                     August 1999 through April 2000 and from October 2000 through June
                     2001.

               •     GSA failed to give WHS a total of $13,950 for an operations
                     delegation credit for August and September 1999.

               •     GSA did not post a credit to the correct GSA monthly bill. GSA gave
                     WHS a credit for Building Specific Operating charges in October
                     1998. However, WHS was billed for Building Specific Operating
                     charges in March 1999.

    WHS overcharged DoD customers in Skyline VI by $112,115. By mistakenly
    billing for additional GSA charges, WHS overcharged DoD customers by

                                                          24
     $126,841. WHS also undercharged DoD customers by $14,726 because it did not
     increase its annual rental rate.

            •   Starting in November 1998, GSA mistakenly billed WHS by $11,531
                per month for building specific operating charges. GSA discovered
                the mistake and credited WHS on the March 1999 bill for the amount
                overcharged from November 1998 through February 1999. However,
                WHS included the GSA operating charge in calculating the annual
                rental rate. WHS charged DoD customers $126,841 for those charges
                for 11 months.

            •   GSA increased the annual rental rate in November 1998. WHS did not
                adjust the rental rate. DoD customers were not charged the $14,726
                cost increase.

Crystal Plaza VI
     GSA overcharged WHS by a total of $883,260. GSA double billed WHS
     $324,957 and inappropriately charged $558,277 for space WHS returned to GSA.

            •   In October 1999, GSA signed a new lease that was less than the
                existing lease. GSA billed WHS at the new lease rate back to
                December 1998. However, GSA also billed WHS under the old lease
                for the same space from December 1998 through May 1999. For the 6
                months, GSA overcharged WHS by $324,957.

            •   GSA billed $558,277 to WHS for 30,605 square feet of space in the
                building that WHS returned to GSA as far back as April 1997. GSA
                continued to bill for the space until the lease expired in January 1999.
                The $558,277 was overbilled for the period April through November
                1998. Our analyses began with the April 1998 rent bills. The billings
                for December 1998 and January 1999 were included in the $324,957
                double billing amount.
     WHS undercharged DoD customers in Crystal Plaza VI by $30,518. WHS
     undercharged DoD customers by a total of $43,038 because it failed to recalculate
     the rental rate in FY 1999 and increase its rental rate when GSA increased
     operating costs. WHS also miscalculated its FY 2001 annual rental rate and
     overcharged its DoD customers by $12,520.

            •   Because of a lease holdover, WHS billed DoD customers in FY 1999
                at the annual rate charged in FY 1998. When the new lease was
                signed, WHS did not recalculate the FY 1999 annual rate. The bills
                for FY 1999 were understated by a total of $39,293.

            •   At the beginning of FY 2001, WHS understated the annual rental rate
                because it calculated the rate using 7,082 square feet less than it should
                have used. By using the incorrect rental rate, WHS overcharged DoD
                customers by $12,520.




                                         25
            •   From February through June 2001, WHS understated bills to DoD
                customers by $3,745 because it did not increase the rental rates when
                operating costs from GSA increased.

Ballston Tower I
     GSA inappropriately charged WHS by a total of $31,960 for building security. On
     one CBR, GSA charged WHS for building security on most of the monthly rent
     bills from October 1999 through June 2001. On another CBR, GSA charged
     WHS for security charges for all but five months from October 1999 through June
     2001.

     WHS undercharged DoD customers in Ballston Tower I by $573,450. WHS
     failed to adjust the annual rental rate when a new CBR was added and when a
     new lease was effective.

            •   WHS did not recalculate the rental rate for the remainder of FY 1999
                when GSA added a new CBR in May 1999. WHS should have
                increased the annual rental rate to cover the $30,356 additional rent
                charge.

            •   In March 2001, GSA entered into a new lease that raised the GSA
                annual rental rate by about 55 percent. WHS did not increase its
                annual rental rate. When the new rental rate is applied from March
                through June 2001, WHS undercharged DoD customers by $543,094.

601 North Fairfax
     WHS overcharged DoD customers in 601 North Fairfax by $101,846 because
     WHS did not use the correct data to calculate the annual rental rate for FY 2001.
     WHS overstated the annual rental rate by $3.47 per square foot. As a result, WHS
     overcharged DoD customers by $11,316 per month from October 2000 through
     June 2001.




                                        26
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
General Services Administration




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          28
________________________________________
Defense Finance and Accounting Service
Comments




                   29
30
________________________________________
Washington Headquarters Services
Comments




                  31
32
________________________________________




                       33
_________________________________________




                     34
Audit Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to the
report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Carmelo G. Ventimiglia
Gary S. Woodrum
Audrey M. Spear
Jeffrey D. Marshall
Ann A. Ferrante
